              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Status of the
Resolution  of National
               Significant
                        Ignition
                           Finding
                                 Facility
Investigation Recommendations
Project




DOE/IG-0598
      -                                     November
                                                April 2002
                                                      2003
STATUS OF THE NATIONAL IGNITION FACILITY PROJECT


TABLE OF
CONTENTS



                   National Ignition Facility

                   Details of Finding ....................................................................... 1


                   Appendix

                   Scope and Methodology ............................................................ 4
NATIONAL IGNITION FACILITY

Background           Construction of the National Ignition Facility, a 192-beamline 1.8
                     megajoule laser being built by Lawrence Livermore National
                     Laboratory (Livermore), began in 1997. The project is comprised of six
                     major components: conventional facility; laser system; target
                     experimental system; integrated computers and controls; assembly,
                     installation, and refurbishment equipment; and utilities. To manage the
                     project to the revised schedule and cost baselines, Livermore
                     established control account plans for each of the six components in
                     conjunction with a work breakdown schedule. Control account
                     managers were assigned and held responsible for maintaining the
                     schedule and keeping the component cost estimates up to date for each
                     control account plan.

Analyses Performed   In order to accomplish our audit objective, we identified specific cost
                     and schedule milestones contained in the revised project execution plan;
                     verified that each of the planned major milestones were completed
                     within cost and schedule; and compared projected future costs to
                     remaining budget and contingency funds. We also physically examined
                     completed portions of the facility; confirmed component test results;
                     and examined the accuracy of status reports submitted to National
                     Nuclear Security Administration (NNSA) headquarters.

Schedule and Cost    To date, significant progress has been made towards constructing the
                     facility within the revised schedule and cost baselines. Our review
                     showed that, as of February 2003, the overall project was about 73
                     percent complete and Livermore had met all revised scheduled
                     milestone dates ahead of schedule. Further, Livermore had developed
                     project management controls to ensure that the estimated construction,
                     commissioning, and operating costs for the facility were kept up to date
                     and the project remained within the revised cost baseline.

                                               Milestone Schedules

                     To ensure that the project remained on schedule, Livermore developed
                     internal milestone dates that were more conservative than the required
                     milestone dates set by NNSA and agreed to by Congress. For example,
                     Livermore's established internal target date to demonstrate the first laser
                     light to the target chamber was set for the second quarter of FY 2003,
                     whereas the NNSA target date was set for the third quarter of FY 2004.
                     Livermore achieved this milestone in January 2003. In another test of
                     the laser system, NNSA required Livermore to achieve a 10 kilojoule,
                     1-omega light through the beamline infrastructure by the fourth quarter
                     of FY 2004. Livermore set and achieved the internal milestone date in
                     the first quarter of FY 2003.

Page 1                                                                     Details of Finding
         Scheduled milestones were also being achieved for the construction and
         assembly of the target experimental system. NNSA required Livermore
         to install the chamber's target positioner by the third quarter of FY
         2003; however, Livermore established their internal milestone for the
         first quarter of FY 2003 and met this milestone goal in January 2003.

         For the utilities component, NNSA required Livermore to complete
         installation of the utility components for the laser bay number 2-cluster
         line number 3 beampath by the first quarter of FY 2003. With a goal
         for the fourth quarter of FY 2002, Livermore completed the installation
         in April 2002.

                          Management of Construction Costs

         Livermore was also managing the construction and demonstration costs
         within the revised baseline. Managers were required to manage the
         funds allocated in their control account plans to the schedule and to
         identify cost savings within their plans. Control account managers were
         also required to develop cost savings approaches to help maintain the
         project within the cost baseline of the control account plans and to alert
         senior project managers of project cost increases in a timely manner. In
         this regard, senior project managers established controls to ensure that
         the major component cost estimates were kept up to date and potential
         cost increases identified by the control account managers were justified.
         Further, the control account managers did not automatically have access
         to contingency funds. Rather, control account managers were required
         to justify the need for the contingency funds based on an on-going or
         annual evaluation of the status of the control account plans.

         Also, when the control account managers determined that components
         would be completed at less than the estimated amount, senior
         management reduced the balance in the control account plan and moved
         the amount to the contingency fund. For example, the original cost to
         build and install the laser system component was estimated at $1.2
         billion. After completing 65 percent of the construction and installation
         of the laser system, the control account manager updated the total cost
         estimate for completion of the laser system to reflect a reduction of
         $12.7 million. Through the annual cost account plan evaluation, senior
         project managers and the control account manager identified this cost
         reduction and transferred the cost reduction to the contingency fund.

         Further, Livermore was managing its contingency funds to ensure an
         adequate balance for the remainder of the project. As of February
         2003, Livermore had $127 million available in construction
         contingencies, of which $82 million was fenced for anticipated cost
         increases, leaving $45 million available for the remainder of the project.
Page 2                                                         Details of Finding
                       Livermore had an additional reserve for the laser demonstration and
                       commissioning of $135 million, of which $61 million was fenced for
                       anticipated cost increases, leaving $74 million for the remainder of the
                       project.

Future Uncertainties   While it is encouraging that significant progress has been made towards
                       constructing the overall facility within the revised schedule and cost
                       baselines, it is important to note that the remaining work to be
                       completed on this project is complex. Specifically, construction of the
                       facility’s laser system, at the time of our review, was still underway.
                       The laser system is a primary component of the facility and involves
                       constructing lasers that are capable of producing power of about 1,000
                       times greater than the electric generating power of the United States.
                       We were not able to determine if the facility will meet NNSA's laser
                       performance requirements for project completion, since Livermore is
                       not planning to fully test these performance requirements until the end
                       of 2006.

                       The NNSA has faced significant challenges in the past regarding this
                       project, and other risks may arise as the project progresses towards
                       completion. Therefore, in our judgment, rigorous and continuous
                       monitoring of the status of the project is fully warranted.




Page 3                                                                      Details of Finding
APPENDIX

SCOPE         The audit was performed from August 2002 to February 2003, at
              NNSA Headquarters and Lawrence Livermore National Laboratory.


METHODOLOGY   The audit focused on revised cost and schedule documents prepared
              during 2001 through February 2003. To accomplish the audit
              objective, we:

                 •   Interviewed NNSA and Livermore officials associated with the
                     NIF project;

                 •   Reviewed Congressional Data Sheets outlining project
                     expectations;

                 •   Examined the Project Execution Plan detailing the
                     methodology for accomplishing the project objectives;

                 •   Assessed status reports and schedules to compare actual
                     milestone accomplishments to planned targets;

                 •   Analyzed actual and planned cost data to identify if milestones
                     were being accomplished within budget targets and potential
                     future cost increases were being mitigated by contingency
                     funds;

                 •   Reviewed performance reporting requirements for the facility;
                     and,

                 •   Reviewed related internal and external management reports.

              At the completion of our field work, the Office of Inspector General
              received an allegation of potential performance problems at NIF. Prior
              to the issuance of our report, we discussed this allegation with NNSA
              management. NNSA had also received the allegation and was
              investigating. We reviewed the results of NNSA's investigation and did
              not identify any reportable issues.

              The audit was conducted in accordance with the Generally Accepted
              Government Auditing Standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed internal controls related to the facility’s cost and schedule.
              We also assessed the performance measures under the Government
              Performance and Results Act of 1993 and found that performance

Page 4                                                   Scope and Methodology
         measures were in place related to our audit objective. We did not test
         computer-processed data since we did not rely on the data to satisfy
         the audit objective. Because our review was limited, it would not
         necessarily have disclosed all internal control deficiencies that may
         have existed at the time of our audit.

         We discussed the results of this audit with officials from NNSA and
         Livermore on February 26, 2003. Since no recommendations were
         made, a formal response was not required.




Page 5                                              Scope and Methodology
                                                                             IG Report No. : DOE/IG-0598

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
